<html>
<title> - [H.A.S.C. No. 115-75]- NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITIES IN AFRICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                    
                         [H.A.S.C. No. 115-75]

  NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITIES IN AFRICA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 6, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-413                      WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a4b3ac83a0b6b0b7aba6afb3eda0acaeed">[email&#160;protected]</a> 



                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
               Mark Morehouse, Professional Staff Member
                 Katy Quinn, Professional Staff Member
                         Britton Burkett, Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Waldhauser, Gen Thomas D., USMC, Commander, U.S. Africa Command..     3

                                APPENDIX

Prepared Statements:

    Smith, Hon. Adam.............................................    48
    Thornberry, Hon. William M. ``Mac''..........................    47
    Waldhauser, Gen Thomas D.....................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  
 
  NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITIES IN AFRICA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, March 6, 2018.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    While the National Defense Strategy [NDS] emphasizes 
strategic competition with Russia and China, it also makes 
clear the Department will have to maintain its focus on 
defeating the terrorist threat to the United States.
    Many of the conditions that allow terrorist groups to 
proliferate, such as vast ungoverned spaces, weak governmental 
institutions, poor security, and struggling economies, exist on 
the African continent. A concern is that the terrorist threat 
in and from Africa will grow as ISIS [Islamic State of Iraq and 
Syria] is pushed out of Iraq and Syria.
    At the same time, Africa has the fastest-growing population 
in the world, immense natural resources, and great potential. 
We are witnessing the strategic competition talked about in the 
NDS taking place there too. China established its first 
overseas military base in Africa last year, just a few miles 
from the U.S. base in Djibouti, for example.
    Using a small number of U.S. military forces, AFRICOM [U.S. 
Africa Command] largely works by, with, and through our African 
partners to address threats on the continent. It also uses DOD 
[Department of Defense] security cooperation programs to 
develop African military partners capable of providing their 
own security. But this approach entails risk, especially given 
the enormous distances and lack of infrastructure on the 
continent.
    Our witness today, General Waldhauser, Commander of 
AFRICOM, will provide his assessment of the threats to U.S. 
national security and how the recently released National 
Defense Strategy affects U.S. military priorities and posture 
on the continent. He will also help us explore the risks versus 
the benefits of our approach to Africa within the strategic 
context of our national security goals.
    I understand that AFRICOM has completed its investigation 
into the October 2017 ambush in Niger by ISIS-affiliated 
fighters that killed four U.S. soldiers. I understand that the 
results of that investigation and its recommendations are now 
being reviewed by the Chairman of the Joint Chiefs of Staff, 
General Dunford, and by Secretary of Defense Mattis.
    In addition, the families of the fallen have not yet been 
briefed on the results. Accordingly, I understand General 
Waldhauser is not able to comment on matters related to that 
investigation. And I would say that is despite of some 
purported leaks in the press this morning.
    The ranking member and I had previously requested a copy of 
the investigative report on behalf of the committee, and we 
expect to receive it right away when it is finished. We further 
expect that General Waldhauser and his staff will be available 
to the committee promptly upon request as we conduct our 
oversight into the issues raised by that incident.
    I yield to the ranking member.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I think you gave an 
excellent summary of the situation within AFRICOM, why this 
testimony is so important.
    I thank General Waldhauser for being here and for his 
leadership in Africa.
    I think it is a very important part of our national 
security picture that does not get as much attention as it 
should, in my opinion. We have certainly seen the threat from 
various transnational terrorist groups popping up in various 
places in Africa, and containing that threat is enormously 
important.
    But, beyond that, I think there are tremendous 
opportunities in Africa for partnerships, as the chairman 
alluded. For all of the challenges that are in Africa, there is 
great promise, as it is a rapidly growing population and a 
rapidly growing economy. So building those relationships and 
building those partnerships is going to be important.
    There obviously are a number of different aspects to that, 
but our military relationship with countries like Ethiopia and 
Kenya and Uganda and others is very important to building the 
strong relationship we need to make sure that our interests are 
protected in Africa and that we help Africa become a more 
peaceful and more prosperous place.
    I am particularly interested in your testimony. I have been 
to East Africa on a number of occasions, and I think it is an 
excellent model for how we can work, as the chairman said, by, 
through, and with our local partners to achieve national 
security objectives.
    Again, working with Ethiopia, Uganda, and Kenya, amongst 
others, we have been able to deal with the situation in Somalia 
and the threat from al-Qaida, I think, reasonably effectively 
in a very difficult part of the world.
    I am interested in how we can replicate that a little bit 
better in West Africa, where, frankly, we have a tougher time 
finding the partners, where you have the chaos in Libya 
spilling out, you have, obviously, problems in Mali and 
elsewhere. Who do we work with there? How do we make sure that 
we don't have a growing, metastasizing terrorism problem coming 
out of West Africa? Who are our best partners and how do we 
contain that, is something that I am most curious about.
    Otherwise, I agree completely with the chairman's 
statement. And I look forward to the statement from our 
witness, and, again, I thank him for his service.
    Thank you, General.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 48.]
    The Chairman. Thank you.
    General, thank you for being here today. Without objection, 
your full written statement will be made part of the record. 
But you are recognized at this point for any oral comments you 
would like to make.

 STATEMENT OF GEN THOMAS D. WALDHAUSER, USMC, COMMANDER, U.S. 
                         AFRICA COMMAND

    General Waldhauser. Thank you, Mr. Chairman.
    Chairman Thornberry, Ranking Member Smith, distinguished 
members of the committee, thank you for the opportunity to 
update you on the efforts of United States Africa Command, 
known as AFRICOM.
    I would like to begin this morning by remembering the 
soldiers and sailor we lost on the continent during operations 
this past year. These brave men died valiantly in the service 
of our country, and we honor their dedication to duty. I offer 
my sincere condolences to their families.
    Mr. Chairman, I have completed my review of the Niger 
investigation and forwarded the report to the Secretary of 
Defense, through the Chairman of the Joint Chiefs of Staff. 
Once the Secretary completes his review and the families have 
been briefed, I intend to provide a comprehensive and detailed 
account of the investigation to you as soon as possible.
    This morning, I would like to talk to you about AFRICOM's 
strategy for the continent, then update you on our priority 
regional efforts.
    The U.S. interests in Africa are reflected in our mission 
statement: ``AFRICOM, with partners, strengthens security 
forces, counters transnational threats, and conducts crisis 
response in order to advance U.S. national interests and 
promote regional security, stability, and prosperity in 
Africa.''
    Our mission statement deliberately highlights the 
importance of ``with partners.'' In reality, very few, if any, 
of the challenges on the African Continent can be resolved 
through the use of military force. Accordingly, AFRICOM's first 
strategic tenet underscores that our military activities are 
designed to support and enable U.S. diplomatic and development 
efforts. We can create time and space for governments to 
establish effective and accountable governance while fostering 
conditions for economies to develop.
    Our second theme describes our strategic approach of ``by, 
with, and through.'' This framework emphasizes our main effort 
to build capacity of our African partner nation defense forces 
to credibly provide for their own security.
    While our African partner nations have enormous potential, 
they are often challenged by instability and exploitation 
stemming from the disruption caused by violent extremist 
organizations, or VEOs. These VEO groups take advantage of 
vast, ungoverned spaces and recruit from populations lacking 
economic opportunities.
    We approach these security threats through our third 
strategic principle of keeping pressure on the networks of 
VEOs, such as Al Shabaab, ISIS, al-Qaida, and Boko Haram, in 
order to mitigate their destabilizing influence. At the same 
time, we remain postured and ready to respond to contingencies 
and to protect U.S. personnel and facilities on the continent.
    These strategic themes and AFRICOM's approach are aligned 
with the national-level guidance. In accordance with the 
recently released National Defense Strategy and in the context 
of changes in the operating environment, we are updating our 
strategy and theater campaign plan to reflect the guidance 
provided by the Secretary of Defense.
    Turning now to our regional efforts, I would like to 
describe for you some of our challenges we face each day on the 
continent.
    In East Africa, AFRICOM's contributions are part of an 
international commitment to help Somalia implement their 
recently designed national security architecture. Al Shabaab 
remains a threat to Somalia and the region, as demonstrated by 
their October 2017 bombing in Mogadishu that killed over 500 
people.
    The challenges facing the Federal Government of Somalia are 
enormous. Nevertheless, they continue to slowly make progress 
and, by doing so, continue to maintain the support of the 
international community. With international partners and 
organizations, including the African Union and the European 
Union, AFRICOM's kinetic and capacity-building efforts assist 
the Federal Government of Somalia with their implementation of 
their comprehensive approach to security and sector reform.
    In North Africa, Libya remains politically and militarily 
divided, with leaders and factions vying for power ahead of 
potential elections later this year. In close cooperation with 
the Libyan External Office located in Tunis and as part of an 
international effort, AFRICOM supports diplomatic objectives 
for political reconciliation. We will continue to work with the 
U.N.-established Government of National Accord and maintain 
pressure on the ISIS-Libya and al-Qaida networks.
    The ``Sahel'' refers to the Sahara-to-savannah transition 
belt spanning the broadest part of Africa, from the Atlantic 
Ocean to the Red Sea. AFRICOM supports multinational efforts in 
the Western Sahel and in the nearby Lake Chad Basin region of 
West Africa. We provide training, advice, and assistance to the 
G5 Sahel countries and the Multinational Joint Task Force in 
order to help them contain violent extremism and secure their 
borders.
    In conclusion this morning, the continued progress on the 
continent with our partners reflects dedicated efforts by the 
men and women of AFRICOM. I am proud to lead these 
professionals who have built strong and trusting relationships 
with the U.S. interagency and with our international community 
in order to foster security, stability, and prosperity on the 
African Continent.
    On behalf of the service members, civilian employees, and 
families of United States Africa Command, thank you for the 
opportunity to be with you this morning, and I look forward to 
your questions.
    [The prepared statement of General Waldhauser can be found 
in the Appendix on page 49.]
    The Chairman. Thank you.
    General, I think your statement was clear, but I just want 
to make sure. You commit that, when the Secretary has signed 
off and the families have been notified, our committee will 
receive a copy of the investigation of the Niger incident as 
well as the recommendations and that you and your staff will be 
available to brief and answer any questions we have. Is that 
right?
    General Waldhauser. That is correct, Mr. Chairman. We 
definitely want to conduct a brief for you.
    The Chairman. Do you have any idea when that will be?
    General Waldhauser. I really don't. It is up to the 
Secretary now to review and for him to be comfortable with the 
information in this exhaustive investigation. So, once that is 
complete, then, again, our first order of business, as we have 
said from the outset, is to brief the families and provide them 
the information.
    The Chairman. Okay.
    You heard in the beginning Mr. Smith and I both discuss the 
importance of the African Continent in a variety of ways. But I 
would like to hear you answer the question: Why should we care? 
What is it about Africa, what are the national security 
interests that the United States has in your area of 
responsibility that justify sending United States military men 
and women in there, conducting missions, and possibly even at 
the risk of their lives?
    General Waldhauser. Mr. Chairman, one of the huge 
challenges of the African Continent are the violent extremist 
organizations that I described at the outset. They permeate the 
entire continent in various locations. At the present time, 
they really do not have the capability to conduct operations, 
for example, in the United States, but they certainly aspire to 
do that.
    And so one of the big things that we try to do with our 
efforts to build capacity inside the continent is to ensure 
that those violent extremist organizations who wish harm in the 
region, wish harm on the European continent, and ultimately 
wish harm on the United States, they are contained and then 
ultimately able to be handled by the security forces of those 
countries.
    So that is a significant challenge that we have. In other 
words, we are trying to prevent something from happening before 
it does. That is a big part of our strategy, and I think it is 
very, very important.
    The second thing that I would say is that, you know, you 
mentioned China and Russia and their ability to gather 
influence on the continent. And one of the things that, when we 
talk to our African partners all the time, is they really have 
a strong desire for U.S. leadership, U.S. involvement.
    So it is important that in areas--as you mentioned Djibouti 
in your opening remarks, we have strategic interests there and 
that Chinese have built a base just outside our gate. So it is 
important that we are there, that we are present, and the 
African people see our commitment to their overall desires.
    And then, finally, I would just say that, you know, you 
talk a little bit about the population and the scale of 
potential problems on the continent: 1.2 billion people today 
in Africa; in 2050, 2.4 billion people will be the population. 
That is one in four people on the planet will live on the 
African Continent.
    So any type of situation, whether it be humanitarian or 
security, the scale of potential problems there is really 
enormous. If there were, for example, outbreaks of some type of 
disease, Ebola, if the HIV [human immunodeficiency virus] 
continued to spread, the numbers that we would talk about and 
the scale and scope would be significant.
    I mean, if you think, today, inside Somalia, as an example, 
with food insecurity, virtually half the population is food-
insecure. Last year, it was 6 million people; this year, a 
little bit less, maybe around 5 million people. These are 
numbers of a scale and scope that, if security issues or 
humanitarian issues were left unchecked or if we didn't 
participate in trying to contain those, we would have 
significant challenges with large scale for a long period of 
time with those type of problems.
    The Chairman. Just to clarify, at some point, there was 
great concern--in recent years, there was great concern about a 
terrorist threat to the United States connected to, in some 
way, Somalia. Are you saying that has basically gone away?
    General Waldhauser. Mr. Chairman, I am not saying it has 
gone away. What I am saying is that some of the organizations 
in Western Africa, in the Sahel, for example, that have a flag 
of convenience, perhaps, with a group like al-Qaida or with a 
group like ISIS, they are small in number, and a lot of their 
activities are focused right there, direct, that have to do 
with regional problems, with grievances to the local 
governments and the like, but they aspire to the teachings of 
groups like ISIS.
    And so, when they are supported by ISIS, whether it is 
financial backing and the like, then you have to assume that 
their desire to attack American citizens in the region, 
American citizens in Europe, American citizens in the home 
country, that still exists.
    Today, though, specifically to your question about Al 
Shabaab inside Somalia, you know, I think you may be referring 
to the bombs, the computer bombs, if you will, that were put on 
airplanes and so forth. But, right now, we have had continuous 
pressure on the Al Shabaab network inside Somalia over the last 
few months, and we are working hard, in conjunction--this is 
all in conjunction with the Federal Government of Somalia.
    I mean, one of the big changes there over the last year is 
President Farmajo, who has been elected and has been in office 
now for 1 year. And he is struggling to put together a strategy 
that a federal government will have a--will be a contributing 
factor to the federal member states. So all of our efforts 
kinetically with Al Shabaab are tied to his strategy.
    And so I would not say that that threat has gone away, but 
I would say right now that, based on some of the kinetic 
activity we have done, in connection with international 
partners, has got Al Shabaab in a situation where they are 
trying to control some territory.
    Now, there obviously was the big bombing in October in 
Mogadishu. Then there was 4 months where there wasn't any. And 
now here in the last week in February, they had another bomb go 
off in Mogadishu.
    So these groups never go away. I mean, you never really 
defeat them. But our overall intention is to get them to a 
situation where the Somali national security forces can handle 
that and then we can then leave.
    The Chairman. Okay.
    I might just remind all members that, after the conclusion 
of this open hearing, we will reconvene a classified session 
upstairs, as we have been doing with the combatant commanders.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I want to follow up on the West Africa question. I think, 
as we were just talking about with Somalia, while you are 
correct, you can never say there is no threat, because 
obviously Al Shabaab is still active, there are still problems 
there, that threat was able to be contained, at least, as we 
worked with our partners over there. In West Africa, you have a 
far more chaotic situation, I believe, in terms of not knowing.
    Can you educate us a little bit? Al-Qaida is active there. 
They have AQIM, al-Qaida in the Land of the Islamic Maghreb. 
ISIS is becoming active. You have Ansar al-Sharia in Libya. You 
have a really crazy mix. And part of it is terrorism. A lot of 
it is also organized crime, in human trafficking, drugs, a 
whole lot of other things.
    What exactly is the threat coming out of West Africa? 
Obviously, this has gotten to everyone's attention after the 
Niger incident, but it was there before. I remember being there 
in 2009 when we were just trying to figure out what was going 
on and really didn't have many assets in that region.
    What is the threat emanating out of that region, and how 
are we trying to confront it?
    General Waldhauser. Thank you, Congressman Smith.
    Look, there are basically two significant areas where the 
threat emanates. First of all, it is northeastern Nigeria, 
where Boko Haram and ISIS in West Africa are.
    The second area in the Sahel is primarily in the northern 
Mali/Niger border area, where the AQIM groups have consolidated 
in the past year into one group called JNIM, Jama'at Nusrat al-
Islam al-Muslim, a group in support of Islam and Muslims. There 
are a handful of al-Qaida groups who have joined together and 
this weekend, by the way, conducted this attack in Burkina 
Faso, and they have taken responsibility for that.
    So inside northern Mali is a significant problem in the 
north, where the peace process that was agreed upon in Algeria 
several years ago with the federal government and various 
groups has not taken hold. And, meanwhile, the AQIM groups, now 
under the banner of JNIM, really have a lot of freedom of 
movement in that particular region. So there is a particular 
threat there.
    Then inside of Nigeria, we talked about Boko Haram and ISIS 
West Africa. And I know over the last week or so, with the 
kidnapping of schoolgirls inside northern Nigeria, again, ISIS 
West Africa has demonstrated their ability to do these type of 
things.
    And so, in both of these areas, this is where we work with 
the ``by, with, and through'' philosophy. And, right now, I 
mean, our guidance has been to contain those, contain Boko 
Haram and ISIS West Africa inside northeastern Nigeria, while 
we build up the partner forces' ability to handle that.
    Then inside in the Niger area, I mean, specifically, Niger 
is a country that is surrounded by problems on all of its 
borders. And in that northwestern part there, on the border 
with Mali, this is where these groups come back and forth 
across that border and have freedom of movement in these large, 
ungoverned spaces.
    These countries--I think one other thing to underscore is 
the size of these countries. I mean, Africa, I think as we all 
know, is--you could fit three and a half of the United States 
inside that continent. So when we are talking about a country 
like Niger, it is almost two times the size of Texas. If you 
are talking about a coastline of Somalia, it is over 1,100 
miles from the Kenyan border up to the northern part of 
Puntland. That is like from Jacksonville, Florida, up to 
northern New York. So it is important to understand the scale 
and the size of all of these situations.
    And then the bottom line--so those are the two big areas 
there in the West.
    You mentioned Libya. And we continue to work with Libya. We 
really have a strategic framework with four key items in mind. 
One of them is the counterterrorism effort, to keep that 
inside--keep that under control. We need to work to prevent 
civil war inside Libya. We need to work to support the 
political process. And we need to work to try to combat the 
migration issue, which ultimately makes its way, in many 
occasions, to the coast of Somalia, where these migrants move 
into Europe.
    Mr. Smith. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General Waldhauser, congratulations on your service as 
Commander of U.S. Africa Command.
    My home State of South Carolina is grateful to have a 
shared culture with West Africa, with Liberia having been 
established by freed slaves from South Carolina. When I visited 
Monrovia with President Ellen Johnson Sirleaf at the AME 
[African Methodist Episcopal] University, which has been 
sponsored by many churches in South Carolina, I felt 
immediately at home. And so what you are doing there is just so 
important.
    As terrorists flee from the Middle East because of our 
successful military efforts there, I am concerned about other 
emerging terrorist threats trying to establish operations in 
Africa. In order to prevent these terrorist organizations from 
establishing themselves, I believe that effective information 
operations are essential to disrupt and counter terrorist 
propaganda and recruitment efforts.
    What capability do you have to rapidly organize and execute 
our information operations in Africa? When you recognize that a 
terrorist organization is trying to establish operations in 
that area, are you able to utilize local nationals who speak 
the language and know the culture to expedite the process of 
standing up an operation? And, also, are you able to 
effectively coordinate your efforts with the Department of 
State?
    General Waldhauser. Thank you, Congressman.
    I would say in this session that our efforts primarily, in 
the information world, are at the tactical level. We have 
organizations that are at various locations with our partner 
forces on the continent, where we go--where we take the 
messages via social media, radio, print, billboards, what have 
you, to try to knock down or mitigate some of the messages that 
come from the terrorist organizations. I will tell you, it is a 
tactical-level operation.
    We have been recently given authorities inside Somalia to 
do some other things, which we can talk about in the closed 
session, and they have proven to be helpful, very much, as 
well.
    But the bottom line is we pay close attention with our 
partners in State. As I indicated, you know, really, our first 
tenet is to be in support of diplomatic and developmental 
efforts, because, at the end of the day, that is the long-term 
solution for the continent. And so we are very attuned to that. 
We work closely with them, and we have a very good working 
relationship with the interagency.
    But information operations is one of the things that we 
primarily work at the tactical level.
    Mr. Wilson. Well, this is encouraging. And I am sure that 
USAID [U.S. Agency for International Development] and other 
government agencies are helpful too.
    With the recent opening of the first Chinese port near 
Djibouti, have you noticed any operational activities by the 
Chinese military in the region? Have you had to alter your 
approach to engage the recent establishment of their military 
influences?
    General Waldhauser. China on the African Continent is a 
very interesting question, because, first of all, they are 
involved primarily all over the continent for minerals, 
resources, and the like. But, interestingly, in Djibouti, it is 
obviously, perhaps, the first overseas base that they have 
built.
    Djibouti is a very strategic location for us. Not only 
AFRICOM, but CENTCOM [U.S. Central Command], Special Operations 
Command, EUCOM [U.S. European Command], TRANSCOM [U.S. 
Transportation Command], we all use that location. So it is 
very, very important to us.
    We are not naive to think that some of the activities the 
Chinese are doing in terms of counterintelligence--they are 
taking place. But it just means that we have to be cautious, we 
have to be on guard for that type of situation.
    Meanwhile, though, there are opportunities, especially in 
Djibouti, where we can work together with the Chinese. I mean, 
they have roughly 2,500 or so peacekeepers on the continent. 
Their military activity is primarily in countries that suit 
their needs. In other words, the One Belt, One Road concept, 
which has a lot of countries in the eastern part of Africa 
where they are located, you will see some military presence.
    We have started to engage them, however, because--but it is 
under the rubric or the framework of our overall national 
strategy. I mean, there are opportunities on the medical side, 
there are opportunities training-wise, that they are right 
there, right next door to us.
    But we are working closely with OSD [Office of the 
Secretary of Defense] and the State Department to plot out a 
way that we can--we understand the nature of our overall 
strategy with China, but there are some unique places where we 
can cooperate on the continent.
    Mr. Wilson. And that is really encouraging, to see it is 
not adversarial, that it can be, working together, mutually 
beneficial to U.S.-Chinese relations and then extraordinarily 
beneficial in the countries where you are operating.
    And another point, back on countering terrorism information 
campaigns. Do you have the military authority that you feel 
sufficient to carry out the efforts you feel need to be made?
    General Waldhauser. Yes, we do, Congressman.
    Mr. Wilson. And, with that, you have answered everything.
    I yield back. Thank you.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And, General, thank you very much for being here.
    And, in many ways, you answered my first question, which 
really related to our National Defense Strategy, which states 
that great power competition, not terrorism, is now the primary 
focus.
    As you allude and speak to how you are working in a 
positive direction with China, perhaps that answers part of how 
you deal with that. But what is the impact? How does that 
affect you and the command there?
    General Waldhauser. Well, Congresswoman, thank you very 
much for the question.
    You know, we read and I have read and reread the National 
Defense Strategy several times now since it has been out. And, 
obviously, there is a lot in there about China, Russia, North 
Korea, and the like, so I really home in on those paragraphs 
that talk about Africa and AFRICOM.
    And on page 18 of the strategy, there is a huge paragraph 
in there that talks--not a huge. I shouldn't say that. There is 
a paragraph there that illustrates really in quite a directive 
manner what the Department's role is vis-a-vis Africa.
    So the first piece of it is under the section that we 
should be engaging with partners and making relationships, 
enduring and trusting relationships. That is very, very 
important. And it is also, I think, the only place in the 
National Defense Strategy where ``by, with, and through'' is 
directed to us.
    And if I have time this morning, either now or in the other 
session, I would like to spend a little time on defining what 
``by, with, and through'' means, because it is more than just a 
bumper sticker.
    Mrs. Davis. Yeah. Well, I am really glad you brought that 
up, sir, because I think, actually, there is a lot of concern 
that, due to a lack of investments in the State Department and, 
particularly, having people at posts that really matter with 
the kind of experience and background that we need, that we 
are--you know, we are really falling short in this regard.
    How do you see that? I mean, do you have full confidence 
that that is not occurring? Or what role should the Congress, 
what should we be doing to shore up that right now? Because we 
are not going to have those people, those relationships that 
are built even in a few years from now.
    General Waldhauser. Congresswoman, thank you.
    Look, I would just go back to my first tenet again. I think 
that the long-term goal for AFRICOM is to support the political 
and the development process on the continent. That is the long-
term solution.
    And so, when I see cases like in Somalia, for example, on 
December 4, when the security conference was there, USAID 
signed a 5-year contract for $309 million which gets at 
developmental issues--infrastructure, education, health care. 
And that is really a whole-of-government approach, and that is 
what we need. And specifically in a case like Somalia, that is 
what they need to keep moving forward.
    So we certainly encourage that. We look for this whole-of-
government approach. We advocate for the development side all 
the time, and it is a big part of what we do.
    On the ``by, with, and through,'' if I may, so the ``by, 
with, and through'' essentially is an architecture or strategy 
that allows us--or forces us to build capacity for partner 
nations with the military in a support role and not in a direct 
combat role.
    Mrs. Davis. Uh-huh.
    General Waldhauser. So, in other words, the engagements or 
the operations are conducted primarily by the partner force, 
with our support in a background role.
    Mrs. Davis. Yeah.
    General Waldhauser. The ``with'' piece of this is that the 
things that we do to train, advise, assist and accompany and 
equip, those are things that we do with our partner forces----
    Mrs. Davis. Sir, could--I hate to interrupt, but my time is 
running out. Could you talk a little--how do we measure the 
success of that ``by, with, and through''?
    General Waldhauser. This is a very difficult question, and 
I don't have a good answer for that.
    I mean, one of the things that we have to do is build 
institutions while we build the tactical level. We have to 
build the executing--an executive agency, in other words an 
OSD-like group. We have to build a generating force like a 
service headquarters so that we just don't continue to train 
soldier after soldier after soldier, don't know where they are, 
we lose track of their service.
    We really have to home in on the institution side. And we 
have been forced by Congress to do that in the last few years. 
So all of this has to have that aspect to it in order to be 
successful.
    Mrs. Davis. Thank you. Do you have sufficient tools?
    General Waldhauser. We have sufficient tools. Our job is to 
do it with a small footprint. That is what--with economy of 
force. And our people understand that. It requires us to be 
innovative in how we do business. So we are fine in that 
regard.
    Mrs. Davis. Thank you very much, sir.
    I yield back.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    General, thank you for being here.
    You spoke about China's work on the continent. Can you 
speak briefly about what Russia might or might not be doing on 
the continent as well?
    General Waldhauser. Thank you, Congressman.
    From the AFRICOM perspective, our concern in Russia, at 
least at the moment, has to do with the northern part of Africa 
and the eastern Mediterranean. I am specifically referring to 
Libya.
    I think that the Russians are looking to have influence on 
the continent through weapons sales, through some of the 
agreements with Libya, for example, that were in place prior to 
the Gaddafi departure. Our concern would be their ability to 
influence and be on the southern flank of NATO [North Atlantic 
Treaty Organization], and also them to kind of squeeze us out, 
if you will, by them taking a prominent role.
    So Russia, to a large degree, is all about influence. And 
their weapons sales don't come with a lot of strings attached. 
That is how they make their--you know, make some revenue from 
that. But, again, it is about influence, and that is what our 
concern is.
    Mr. Conaway. Thank you.
    The water crisis in South Africa, particularly Cape Town, 
is that something that your guys look at, in terms of not 
necessarily solving it, but the potential for unrest within a 
population of 4 million people who run out of water and the 
impact it would have on the stability of the government and the 
ability to maintain the rule of law?
    General Waldhauser. So that is one of the places where--
what is unique about the AFRICOM staff, when it was first built 
10 years ago--we are in our 10th-year anniversary--is that we 
have a very, very highly skilled and are very much represented 
by interagency partners.
    So our State Department and USAID people track that. I 
mean, we don't really have any direct involvement in it. But we 
have had exercises and we do military engagements with South 
Africa. But we pay attention to that, watch that, and see how 
it may impact various aspects of our engagement.
    Mr. Conaway. And then on counternarcotics, obviously, the 
drug routes coming out of Venezuela, across West Africa. Could 
you speak about any particular drug routes for drugs coming out 
of South Asia, going into Kenya, Tanzania, and the impact it 
might have on corrupting those already-fragile governments?
    General Waldhauser. Right. I guess I would have to say that 
my knowledge and interest in the drug trade primarily comes 
from Western Africa, as it moves in through Mali, moves in 
through Niger, moves up through into Libya, on into the 
European continent and perhaps even into the United States.
    There is no doubt about it, I mean, a lot of these 
terrorist groups, they call themselves terrorist groups, but to 
a large degree they are heavily involved in criminal 
activities--trafficking weapons, people, drugs--and that is how 
they make their livelihood. That is how they tap in to recruit 
young men of this youth bulge that is on the continent, to give 
them a livelihood, give them a better life. There is no doubt 
about the fact that this drug-smuggling piece is a big part of 
what goes on.
    And that is why one of the challenges, I think, that we 
have as AFRICOM is to try--when someone--when one of these 
groups labels themselves as ISIS or al-Qaida, you have to 
really look closely at their ties to historic cattle and 
livestock raiding and those type of things and just try to see 
and get an understanding as to what they are trying to do vis-
a-vis carry out the ISIS, let's just say, norm of trying to 
attack the West.
    These are all very complex problems, but many of them are 
rooted in things just as you described--drug trafficking, 
weapons trafficking, and the like.
    Mr. Conaway. All right. General, thank you for your 
service.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, General, for your testimony this morning.
    I understand that, again, the report on the ambush is still 
a little bit on hold until, again, you clear it with the 
families, and that certainly makes sense. I wanted to ask you a 
question, though, that is somewhat related to it and I don't 
think really, you know, delves into the specifics of that 
incident.
    I received an email from a constituent who is serving in 
Niger in December, who asked what I thought was a pretty good 
question, which is why people serving over there don't receive 
imminent danger pay [IDP]. And, again, he looked on the chart, 
and there are countries in Africa like Algeria, Chad, Egypt, 
and Kenya that currently qualify for IDP, but folks who are 
serving in Niger and Mali don't.
    And, you know, we know enough about the incident from 
public hearings in this committee, that it was a particularly 
violent and vicious event. And I want to ask your opinion. 
Should our service members who are serving in Niger qualify for 
IDP?
    General Waldhauser. Congressman, thank you.
    The short answer is yes. And we submitted that, with Niger 
and other countries in the area where it is dangerous, several 
months ago to OSD. My understanding is it is at OMB [Office of 
Management and Budget] for reconciliation, but we have made 
that request a while back.
    Mr. Courtney. Well, thank you. And, again, that is 
something that I think a lot of Members might be interested in, 
following up with OMB to make sure that they do the right 
thing.
    Again, just wanted to sort of spend a minute on Djibouti 
and China's, you know, presence there, which is pretty close, 
physically, to our, you know, installation that is there. I 
mean, are there any steps being taken in terms of just, you 
know, worries about surveillance or, you know, intelligence 
gathering, that there might be some vulnerabilities, again, 
given the proximity?
    General Waldhauser. Well, first of all, you are absolutely 
correct, it is right next door. I mean, there have been rumors 
that the Chinese military wanted to come over and use our PX 
over at Djibouti. There is engagement periodically. I mean, 
these individuals come to, let's just say, events over on Camp 
Lemonnier. So there is a lot of interaction there, a lot of 
contact there.
    We have taken--we are taking significant steps on the 
counterintelligence side so that we have all the defenses that 
we need there. There is no doubt about that.
    But I think that one of the challenges that we are going to 
have is things like this: I mean, the Djiboutian Government is 
probably over $1.2 billion in debt to the Chinese. At some 
point in time, that money needs to be collected. The Chinese 
have built infrastructure, which is good. They have built 
buildings and roads inside Djibouti and other places on the 
continent. But this continues to pile up the debt in countries 
like Djibouti.
    And so what is of concern to us here last week is a small 
item I am sure probably didn't hit your radar screens, but the 
Djiboutian Government took over the main port in Djibouti from 
a company that is in UAE [United Arab Emirates]. And the 
Djiboutians have told our country team there that there is no 
intent to have the Chinese run that port, there is no intent to 
give that over to the Chinese. But the bottom line is they took 
it over because this is another way for them to gain revenue in 
order to pay back this debt.
    So we are going to watch that very close. Because if, in 
the worst-case scenario, if it happened, if the Chinese did 
take over that port--and, again, we have assurances from the 
Djiboutians they won't, but if they did, I mean, down the way, 
that restricts our access. That restricts the Navy's ability to 
get in there and just simply offload supplies and the like. So 
there are challenges with this.
    So, when we talk about influence and access, this is a 
classic example with regards to China of how we have to proceed 
and how we have to be careful as we move forward.
    Mr. Courtney. Thank you.
    I yield back.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, Mr. Waldhauser, or General Waldhauser, for being 
here. You have a lot of fans up here, and you have a lot of 
fans in the crowd too, as evidenced by some older Marines of 
notoriety that came to be with you and show their support. So 
thank you very much for being here.
    I guess the one thing I would like to touch on is: You are 
in Germany; that is where you are stationed at. You own Africa. 
That is your area of operations. And the movement of 
transnational criminals and terrorism to Europe and then making 
its way here to the U.S., would you just touch on that?
    General Waldhauser. Thanks, Congressman. Appreciate it. And 
I won't identify who those older Marines are off to my side. 
They--whatever.
    So we have--so, for example, we talked about in Libya one 
of our tasks is to try to help mitigate the migration issue. 
Our presence in Libya at the moment is small in numbers. We are 
heavily involved in a counterterrorism piece, and we are 
heavily involved with support to our State Department to be 
able to get them into Tripoli on a predictable basis.
    Do you know that today inside Tripoli there are 24 
embassies that have predictable presence? Sixteen are full-
time. They include Turkey; they include China. There are eight 
that are part-time at the moment, initial operating capacity: 
EU [European Union], U.K., France, Germany, and Russia.
    I met with Ghassan Salame, who is the U.N. Special 
Representative to Libya, here about a few weeks ago at the 
Munich Security Conference. He indicated to me that the main 
effort or the center of gravity now is moving into Tripoli to 
try to get these things done, to try to get--there are many 
meetings that take place there. And so we are working closely 
with our--and we support our State Department to try to help 
them get in there full-time--not full-time initially, but at 
least episodic presence, in order that they can make a 
difference.
    So, with regards to the--but one of our tasks in Libya is 
the migrant issue. And we do that, to a large degree, 
indirectly. I mean, really, you need a functioning federal 
government. And even then there is no guarantee the trafficking 
and the migrant issue will go away, but at least it would be a 
start. But where we help is kind of indirectly, where, in 
Niger, for example, we have some partner forces who are there 
specifically to train Niger forces on the policing, if you 
will, of the migrant problem.
    But the bottom line is the migrant problem is not going to 
go away until there can be a livelihood replaced for the money 
that these individuals all across the chain make on the migrant 
issue. The migrant issue is a livelihood, it is a way of life, 
it is a business case. This is how many of these small 
villages, many of these individuals, this is how they make 
their money.
    Because the migrants, to a large degree--our statistics 
will show that a good majority of them will come from countries 
that they are able to pay to do this, whether they sell all 
their belongings to make it happen or whether family members 
will garner the money that will get an individual up into 
Libya, across the coast, into Europe, and ultimately bring more 
family members on. It is a livelihood, it is a business. And so 
this is really the heart of the problem.
    So we deal, at the moment, indirectly with helping and 
assisting our partners who train police forces to try to get 
after this thing. But the bottom line is this will not go away 
until there is a developmental side of this, where there is a 
livelihood that can take the place of the money that is 
supplied by the migrant problem.
    Mr. Hunter. Who is the number one agency that you work with 
that tries to track the bad guys that have moved in with the 
good guys just trying to make a better living? Who is tracking 
that on our side with you?
    General Waldhauser. Well, I would just say that we work in 
conjunction with Special Operations Command, who has global 
interest in that. We work with our other agency partners on the 
intelligence side to do that. Maybe in closed session we could 
talk in a little bit more detail, but----
    Mr. Hunter. And the German authorities and the European 
authorities obviously push back to you, and you give them 
information, they give you information, and that helps you 
operate in Africa? Or do you have that kind of back-and-forth 
crosstalk?
    General Waldhauser. I would have to say that, working with 
the Germans in that regard, we probably don't work in that 
level of detail. I mean, we have FBI [Federal Bureau of 
Investigation], we have those individuals on the staff. I would 
have to get back to you on if we are doing anything 
specifically with the European countries. For the most part, I 
would say that it is probably very, very little, if any.
    Mr. Hunter. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Thank you, General.
    I understand your comments about the report on Niger. And I 
think we all want to respect the process and the investigation 
and certainly want to respect the ability for those families 
who lost a service member to learn the findings of the report 
first.
    But I also want to make sure that, you know, given the 
importance that Africa has for United States national security, 
our growing presence there, that there is a full hearing on 
what we find in that report. And I hope that this committee and 
you will appear before us in the future so that we can have 
that appropriate oversight and accountability, lessons learned, 
so we can apply them going forward. I think we all want that.
    And so I appreciate your willingness to share that 
information with us at the appropriate time and then also make 
sure the broader public has the benefit of understanding that 
as well.
    Wanted to ask you a couple questions about Somalia. My 
understanding is that we are engaged there under the legal 
auspices of the 2001 authorization for the use of military 
force. Having connected Al Shabaab with al-Qaida and the 
perpetrators of the 9/11 attack, that allows us to use military 
force there, to have U.S. service members there.
    Is that--and, functionally, I would argue, we are at war in 
Somalia. Is that an accurate reading of the situation there?
    General Waldhauser. Congressman, I would say it is an 
accurate reading. I wouldn't say--I wouldn't characterize it 
that we are at war. I mean, it specifically is designed for us 
not to own that.
    And I think that one of the things that gets lost sometimes 
is the overall international effort that is ongoing there that 
we are a part of. So, for example, the European Union trains 
institutional-level, Turkey trains there, the UAE trains there, 
the U.K. [United Kingdom] trains there. And we have a part of 
that as well.
    And I think the second thing I would point out is that, you 
know, our authorities come from execute orders that come from 
the Secretary of Defense. And so what we do there kinetically 
and what our niche is there in terms of building partnership 
capacity all comes from those authorities.
    And I think the other thing I would just mention is that it 
is important to understand that we are just not there just 
plinging targets on a daily basis----
    Mr. O'Rourke. But, if I could interrupt you----
    General Waldhauser. Sure.
    Mr. O'Rourke [continuing]. Just because I want to make sure 
that I get these questions answered. And I apologize for the 
interruption. But we are taking the lives of enemy combatants 
there under that authority. Is that correct?
    General Waldhauser. We are conducting direct action strikes 
inside Somalia, yes.
    Mr. O'Rourke. And what other countries under your command 
are we doing that in right now?
    General Waldhauser. We have the authority to do so in 
Somalia and in Libya.
    Mr. O'Rourke. Okay.
    And I wanted to ask you a follow-up question to some of the 
other questions that were asked about complementing resources 
with the State Department, diplomatic resources, economic 
resources, to complement the military presence that is there.
    And, also, the human rights dynamic of this. There was a 
report this last summer about a raid in Somalia that was 
supported by the U.S. military, as reported, and reported that 
10 civilians, including 3 children, were killed there. The 
followup from the Pentagon was that you all were 
investigating--or that the Pentagon was investigating that 
attack.
    Can you tell us a little bit about the repercussions of 
that, what your findings have determined, and how that affects 
your mission in that country, and what we can do on the 
diplomatic side to complement the military side of this.
    General Waldhauser. Thank you.
    I am sure you are referring to the incident in Barire, 
where, immediately upon--and where our forces were not involved 
in direct combat, but there were casualties there. And 
immediately it became very unclear, as happens almost every 
time when there is a strike in Somalia with regards to an IO 
[information operations] campaign from the enemy.
    We did conduct an inquiry into that. And, you know, some of 
the issues that were brought up, with children and women and 
that, just didn't happen. I mean, the investigation, the facts 
just weren't there.
    We had received--there were several media articles on that 
particular topic, and I just decided at that point in time--so 
it is kind of a dilemma. I mean, if you react to every item 
that shows up on social media, we would spend our entire day 
trying to hit back things that weren't true. But there were 
several media articles, and in this particular case, in order 
to demonstrate transparency, I just decided to have an 
investigation take place. And there is one ongoing right now by 
NCIS [Naval Criminal Investigative Service] to do that.
    So we just said--we looked into it. The facts, as we have 
known them, don't support some of the things that were out 
there, so let an agency take care of it. But we are confident 
that our case is going to be accurate, but if it is not, we 
will take other appropriate action.
    Mr. O'Rourke. Thank you. Appreciate that. I just feel like, 
as we work with these partner countries, we then become 
connected with their actions. So it is great that there is an 
investigation, and look forward to seeing the results of that.
    General Waldhauser. If I may say, if I could, I would just 
add that, look, the dynamics of the clans in Somalia are 
something that is very, very complex. I mean, President 
Farmaajo, who was a U.S. citizen and lived in Buffalo, New 
York, got his master's degree at the University of Buffalo, his 
master's thesis was on the fact that the United States does not 
understand the clan dynamics in Somalia. I made that required 
reading for our team, and even after reading it, we still 
probably don't.
    But the bottom line is the clan dynamics, the information 
campaign from Al Shabaab into social media is something that is 
very, very difficult for us. And we have to be aware of it, we 
have to combat it all the time, because they have an inordinate 
amount of just false information that they put out all the time 
as part of their strategy.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you.
    General, you have a very large job, and I appreciate all 
your efforts.
    In your written testimony, you discuss the importance of 
increasing partner institutional capacity in Africa. So can you 
discuss the benefits and shortfalls and give us an example of 
progress that you have made in this region?
    General Waldhauser. Thank you very much.
    As I perhaps alluded to earlier, perhaps one of the 
cornerstone or keys to any of these building-partnership-
capacity programs is development at the institutional level. 
You have to have an executive organization who has strategy. 
You have to have an operational organization who takes care of 
training, organizing, equipping, paying, and the like. And 
then, of course, the tactical areas.
    And I think that, you know, we have plenty of examples on 
the continent where this has not gone well, where we have 
trained, advised, and assisted and we have given all kinds of 
numbers and all kinds of dollars, in conjunction with State 
Department, and yet we still don't have a good accountability. 
So one of the things we are trying to do is work at the 
institutional level to make sure that is there.
    It is very difficult in some of the nations where it is a 
fledgling democracy and there are all kinds of issues with 
regards to education and the like. But I would say one of the 
places where it is a success story is Tunisia, where, really, 
this whole thing all started.
    We have been working extremely close with the Tunisians on 
a whole host of activities. But I think at the institutional 
level, the development of their intelligence service, an 
overall, comprehensive intelligence service that has the 
ability to synthesize, gain information, and then disseminate 
that information on a strategic and operational level, is a 
success story.
    And when you look at some of the factors that go into that, 
you look at a government that supports it, a government that 
works, and you have an educational level and you have the 
ability for them to absorb that type of capacity.
    So that would be an example of something that has gone very 
well.
    Mrs. Hartzler. Very good.
    Several years ago, I read an article that was new to me and 
pretty shocking, just talking about--and, at that time, the 
article was about Sudan and the reality that there is slavery 
going on there today. This was 20 years ago. But how people 
from the north were coming down, were capturing young men from 
their huts, taking them, selling them, and, you know, piercing 
their ear, and they became basically owned by that person.
    Is there still--well, I believe it still is going on. But 
could you articulate more what countries there is slavery going 
on? And are we doing anything in this regard to stop this?
    General Waldhauser. Congresswoman, I really couldn't say 
what countries where slavery is going on. I mean, there 
certainly are fragile states that have histories, as you 
described, in those type of activities. And, I mean, you 
mentioned Sudan, and also the problems, obviously, today with 
South Sudan, in terms of that particular challenge there, with 
a government that continues to use military force to beat back 
an opposition.
    Look, I would answer that question by saying that all the 
training that we do has a human-rights aspect to it. I mean, we 
train militaries to adhere to the laws of armed conflict. We 
train them on laws of war, and we try to make sure there is a 
humanitarian side to that.
    But as far as which countries right today have slave trades 
ongoing, I mean, I wouldn't--I would have to get back to you on 
that.
    Mrs. Hartzler. Uh-huh.
    As we have worked hard to increase and pass a bipartisan 
budget to help address some of the readiness shortfalls, could 
you articulate some of the concerns that you have in your 
command with readiness issues and what you need to address 
that? And do you feel like the increased resources that we have 
given you in this past budget will help meet those shortfalls?
    General Waldhauser. Congresswoman, thank you very much.
    The budget is certainly something that is a big--that we 
are very happy about. And the resources that we have are 
adequate for what we do.
    AFRICOM, historically, in the 10 years it has existed, has 
always been an economy-of-force organization. I mean, we have 
said time after time, commanders before me, some of the things 
with regards to personnel evacuation and MEDEVAC [medical 
evacuation] and then ISR [intelligence, surveillance, and 
reconnaissance] support, those are things that we would like to 
have more of. And I don't think there is any COCOM [combatant 
commander] who would sit before you--in fact, I think General 
Votel, the other day, talked about how no COCOM would say that 
he has adequate ISR.
    But the bottom line is we know we have adequate resources 
to do what we are supposed to do, and we have to work within 
those right and left limits. We have to be innovative, we have 
to be creative, we have to coordinate.
    But I think the overall budget certainly gives us what we 
need. And my job at AFRICOM is to continue to advocate for 
those assets that we need, but then, when we have some or if we 
buy them as a result of OCO [overseas contingency operations] 
funding and the like to fill some of those gaps, like in the 
MEDEVAC arena, then that is how we will attack the problems of 
adequate resources.
    Mrs. Hartzler. Thank you very much.
    I yield back.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you very much.
    General, thank you for being here today. Thank you for your 
leadership at AFRICOM. And I want to recognize that, in a few 
months, in October, you will be celebrating the 10-year 
anniversary of AFRICOM, so congratulations.
    I wanted to ask a question--it has been asked before, 
perhaps a little bit differently--about the allocation of 
national resources to different lines of effort, both military 
and nonmilitary, on the continent.
    I have information, you know, that shows that from fiscal 
year 2012 to 2017 our aid to Africa, USAID and the State 
Department, has been pretty level, $7 billion to $8 billion, 
but in recent requests that level has--the request has been cut 
by $3 billion. Now, that hasn't been approved by Congress, but 
that is a request that is in by the administration. And that $3 
billion is a cut, essentially, to two programs. One is 
development assistance, and the other is Food for Peace.
    Also, I notice that from fiscal year 2013 to 2015 the title 
10 security assistance, which includes train and equip, has 
gone from about $100 million a year to closer to $600 million, 
almost a half-a-billion-dollar increase.
    You had mentioned at the outset of your testimony that the 
national security interests in Africa were threefold: one, to 
fight violent extremism, particularly those who aspire to 
strike the United States; the other--and this is my 
paraphrasing--is to sort of check Chinese or China--encroaching 
by China and Russia; and the third, you referenced that one-
quarter of the global population and the needs that that 
population has.
    It seems to me that if we don't address the needs of that 
population, that those are the underlying causes that fuel that 
first concern you have, which is the violent extremism. No 
jobs, no housing, no opportunities tends to drive people or 
draw people to extremist-type activities.
    So my question is, given those trend lines and the request 
for a decrease in development assistance and the increase in 
title 10, train and equip, do you see a disconnect there? And 
does that create any additional challenges for you in what you 
are trying to accomplish?
    General Waldhauser. Thank you very much, Congressman Brown.
    First of all, I would just like to say that, with regards 
to the funding piece, we have to be cognizant and be a good 
partner and good steward of those funds.
    So, for example, recently, a month or so ago, inside 
Somalia, State Department and the charge down there stopped 
some of the equipment coming to the Somalia National Army 
because their ability to account for it was not there. And so 
we told them, ``You need to account for this. You need to be 
responsible for this. And we are not going to continue just to 
give you equipment that we don't know where it went.'' So we 
have to be responsible for that.
    Secondly, in order to have development, you have to have a 
secure environment, and so they go hand in hand. And we 
certainly are very cognizant--we get this question a lot, is, 
have we militarized our policy on the African Continent. And 
that is not what we want to do. But we have to have a secure 
environment, so we have to build partner capacity so that they 
can--so various countries can secure their borders from these 
violent extremist organizations who want to have freedom of 
movement, who want to essentially overthrow some of these 
governments. So you do need to have security.
    But, on the other hand, and the bottom line is, the 
development side is the long-term solution. And with the youth 
population that we have talked about today--I don't know if we 
have mentioned these, but you know, over 40 percent of the 
population is under the age of 15. If you take it up to 24, you 
are somewhere over 60 percent of the population is under the 
age of 24. Niger, for example, 19 million people in that 
country. The average age is 15. Fifty percent of those people 
are 15.
    So you can see that the requirement for education, the 
requirement for job skills, the requirement to have a 
livelihood to give these individuals a better life is certainly 
a developmental issue that needs to be addressed.
    And so, even though if the trend lines may be in the 
direction of perhaps more for DOD with regards to building 
capacity, it is necessary. We have to have security. But, at 
the same time, you have to have development. Otherwise, you are 
not going to get to where you need to be.
    Mr. Brown. I just also want to point out that there are a 
few unfilled positions at the State Department. One is the 
Ambassador at Tanzania and Congo. Both are on the State 
fragility index as either high at risk or very high alert. Is 
that creating more challenges for you to be able to accomplish 
your mission?
    General Waldhauser. Congressman, so, look, I would support 
that--you know, we work closely with the charges. They are 
very, very good. But I would support any nominations and 
securing of ambassadorships to these countries, because it is 
very, very important.
    Mr. Brown. Thank you, Mr. Chairman.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General, thank you for being here.
    I spent a week last year with General Furness in Camp 
Lemonnier and went into many of the various countries over 
there. And it is not possible to explain to people just how 
vast that territory is unless you actually get to see it from 
an airplane or a helicopter.
    And there are tremendous sums of ungoverned territory out 
there. We have seen in the past where China has attempted to 
actually purchase land, in areas like Iceland. Are we seeing 
the Chinese try to actually purchase land, significant amounts 
of acreage, in Africa?
    General Waldhauser. Well, Congressman, I would just say 
that the port in Djibouti is not the last port that China will 
build on the continent. There are some indications of looking 
for additional facilities, specifically on the eastern coast, 
because, again, it ties into the Belt-Road concept. So they 
have access to move their goods in and out.
    But, you know, again, this is their plan, it is out there, 
and they are really executing it. So Djibouti happens to be the 
first. There will be more.
    Mr. Scott. One of the things that I remember from that trip 
is that the Chinese actually had a hospital ship in the Port of 
Djibouti.
    And of all the things that I heard from General Furness and 
the other people that we met with over there, the one thing 
that surprised me the most was to actually see a hospital ship 
where they are now delivering services to these citizens. And 
certainly happy that the citizens are getting that, but that 
seemed to be a marked change in the Chinese approach to 
influence in a country.
    Is the--you mentioned the ISR and the lack thereof. The 
JSTARS [Joint Surveillance Target Attack Radar] fly out of 
Robins Air Force Base. It is a platform that we have spent 
tremendous sums in development of, and now we are ready to 
purchase the new JSTARS platform. And the Air Force did not 
include it in its budget this year because of the shift 
towards--the National Defense Strategy shift towards China and 
Russia.
    The potential loss of those ISR platforms, because of the 
shift toward China and Russia, what impact would that have on a 
continent like Africa and on the AFRICOM mission?
    General Waldhauser. Congressman, one of the things that, 
from our ISR perspective is we desire--and I continue to 
advocate for--access to all of the intelligence capabilities, 
signals intelligence, ground movement, for example, video, 
signals, and the like. That is how you put a picture together.
    So the JSTARS does play a place in that--it has a piece in 
that. And so, from our perspective--interestingly, the National 
Defense Strategy does talk about readiness in China and Russia. 
But the specific parts about Africa, though, still deal with 
by, with, and through and this terrorist-type threat.
    Now, we know where the priority is, and we know when it 
comes to making hard decisions on assets, we understand that. 
But I would just say that, from our perspective, that any 
intelligence from the various levels, as I just described, are 
helpful to us.
    Mr. Scott. It seems to me that if we--that stopping the 
procurement at this stage to develop another system might 
actually delay the ability--we simply won't have the platform 
or a platform to develop the--to deliver the ISR to you if we 
delay the purchase in hopes of being able to buy another system 
in the future.
    Any information that you could give us about the links 
between the terrorist organizations inside the continent of 
Africa and links to terrorist organizations inside the U.S.?
    General Waldhauser. Congressman, in this session what I 
would say is that the links that we see deal more directly with 
ISIS core, deal more directly with AQ [al-Qaida] core at this 
point in time.
    Mr. Scott. I have no further questions, Mr. Chairman, so I 
will yield the remainder of my time.
    General, thank you.
    General Waldhauser. Thank you.
    Mr. Scott. And I look forward to seeing you in the next 
session.
    General Waldhauser. Thank you.
    The Chairman. Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman.
    General, good morning. Thank you for being here.
    You talked about you have the authority to take lives in 
Somalia and Libya. Doesn't the AUMF [authorization for the use 
of military force] give you authority to carry out those 
actions throughout the country--throughout the--excuse me, 
throughout the continent?
    General Waldhauser. Well--right. The authorities that we 
work under are title 10 authorities that come from execute 
orders from the Secretary of Defense to go ahead and do those 
direct-action-type missions.
    Mr. Panetta. Right. I traveled with Representative Scott to 
Africa and those countries, and I completely agree with him 
that it is very vast, very big, but that also leads to the 
problems of having timely QRFs [quick reaction forces].
    If you could, give us a sense of the current QRFs and if 
you have any recommendations to how you improve having QRFs in 
that area.
    General Waldhauser. So let's talk about the MEDEVAC, the PR 
piece of this, in terms of being able to react. In--so we 
talked about the size and scope of the Somali seaboard, for 
example, 1,100 miles.
    And so what we have to do is we have to be innovative, and 
we have to be agile. So we have to move damage control surgery 
units, roll-to units, as we call them, move them around to 
where the operations are so we are closely linked to that.
    We have to move the aircraft along--helicopters, for 
example, move them around to be positioned where they can 
support the ongoing operations, all designed to be as quick as 
we can.
    And that is really how we get after that. We have to, you 
know, be methodical. We have to be tied to the operations. And 
we have to make sure that our assets and the way we think about 
it, our medical planners and the like, and our operational 
planners, how they think about it so we are able to accommodate 
a faster response time.
    Mr. Panetta. In regards to the operation that took place in 
Niger, what was the nearest QRF?
    General Waldhauser. Congressman, we made a commitment to 
the families, and I think that particular question, we would 
like to have them get the information, and we will be happy to 
answer that when we come back to brief you.
    Mr. Panetta. Understood.
    Right now, there are about 5,000 to 6,000 troops on the 
continent, U.S. troops?
    General Waldhauser. You know, on any given day, there is 
about 6,500 troops and about 1,000 contractors for about 7,500 
troops in the continent. The bulk of those troops are in two 
places: The first one is on the eastern part, as you are 
probably well aware; Djibouti, Somalia, and Kenya is where a 
huge number of those--over probably 4,000 of those troops are 
there. Then the other places where there are large--are in the 
west. And, you know, some of the countries are a little bit--do 
not want us to make a big deal out of the numbers that we have 
there, and I respect that. But the bottom line is they are in 
the west, and these problems with the G5 Sahel and these 
problems in Lake Chad is where the bulk of our people are 
there.
    What I think it is important to underscore, though, is that 
when it comes to issues like QRF and MEDEVAC and, you know, and 
so forth, is this size is huge for us; in other words, you 
know, three and a half times the United States inside the 
African Continent. And then you have small pockets of people 
distributed in many different places.
    So our challenge, QRF, MEDEVAC-wise, is significant. And as 
I described earlier, that is how we accommodate. And we use--I 
would also add that we use agreements with our partner nations 
to include their medical facilities, to include their 
helicopter and airplane facilities. We work--so by, with, and 
through with partner forces, in our case, we are encouraged by 
the National Defense Strategy to work and support those 
partners. And so we leverage what they bring as well in order 
to get at some of these issues we talked about.
    Mr. Panetta. You are based in Stuttgart, correct? How often 
are you on the continent of Africa?
    General Waldhauser. Me, personally, it--probably, once, 
twice, a month. It just depends on the travel schedule.
    Mr. Panetta. Okay. Thank you, General.
    I yield back.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Chairman.
    General, good morning.
    I know you have answered a number of questions about 
Djibouti, but if you don't mind, I would like to go back. 
Obviously, it is an important country, where the Gulf of Aden 
flows in with the Red Sea, a very narrow body of water there, 
right across from Yemen.
    The reports that I have heard about the actions of last 
week were that Djibouti actually illegally seized control of 
the Doraleh Port. And reports that I have read say that they 
didn't seize it for purposes of operating it for profit but 
that they actually intend to gift it to China.
    So my first question to you is, is it your information that 
the port was illegally seized? And then, secondly, have you 
heard reports you think that are valid that there is some 
intent to gift it to China?
    General Waldhauser. Well, what I can tell you, Congressman, 
is I do know from the open sources that Dubai Port World is 
taking this to court, I believe, in London. They are going to 
challenge this activity in London. The Djiboutians believe that 
they have the inherent right to nullify the contract, so it 
will have to be taken care of in court.
    Now, with regards to the future, again, our country team, 
our Ambassador there talked with senior officials. They were 
assured by senior officials that there is no intention to 
eventually give this over to China.
    We will have to wait and see. I mean, whether the 
Djiboutian country is able to run--they are going to run the 
port, as I understand it, for the next 6 months and then maybe 
transition it to someone else, another company. The key at that 
point would be is who owns those companies and how that works. 
That is something--so that is my information on the port.
    Mr. Byrne. Well, let's look out there. Suppose that they 
did gift that port to China, what would that mean to the United 
States interest in that region?
    General Waldhauser. Well, the consequence is--if the 
Chinese took over that port, then the consequences could be 
significant if there were some restrictions in our ability to 
use that. Because, obviously, the supplies that come in and not 
only take care of Camp Lemonnier and other places inside the 
continent--it is a huge place--it is a huge activity there. 
Moreover, I believe our U.S. Navy ships come in and out of 
there to refuel and whatnot. So there could be some 
consequences. That is why it is important to watch this. And--
--
    Mr. Byrne. Go ahead.
    General Waldhauser. If I might say, I mean, talking about 
Congressman Scott's question about visibility and the Chinese 
and the like, this is why our--your visits there are very, very 
important. This is why our visibility there is very, very 
important.
    The Chinese there are building facilities. They are 
building a shopping mall. They built a soccer stadium. They 
have changed--they have built the infrastructure for 
communications in Djibouti.
    Now, Djibouti is a small country, and there are not a lot 
of resources there. They sell--there is a strategic geography 
situation. But when you have a hospital ship that is serving 
Djiboutians, they see that. And that enhances--and that is 
good, but it enhances the Chinese's view from the Djiboutian 
population.
    And so it is important that we are visible there. It is 
important that, when we tell Djibouti we are their best 
partner, that we back that up with visits, with training that 
we do with Djiboutian Armed Forces. Small investments and small 
items, but it is an effort to let our Djiboutian partners know 
that we are a serious partner. I mean, our lease there is a 30-
year lease. I think we are, I don't know, 6, 7 years, 8 years 
into the 30-year lease. And so it is a strategic geography 
location for us, and we need to keep it.
    Mr. Byrne. Well, the Chinese aren't there for purely 
charitable reasons; we all would recognize that. They obviously 
believe it is a strategic location.
    Look out 10 years: Where do you see China in that area, not 
just Djibouti but that entire region? Where do you see the 
United States?
    General Waldhauser. Well, I think, in 10 years, if--the 
Chinese involvement and engagement on the continent is 
certainly on an upward arc. If we don't--you know, if we 
don't--I won't say challenge that, but if we don't go with 
that, then, at some point in time, our--we have a very high 
approval rating by the--most places in Africa.
    But as I've said, when you see visible signs, soccer 
stadiums, shopping malls, and the like, they know that the 
Chinese have built that for them. So, unless we are--we need 
just to continue to do small things. I think small--you know, 
small things go a long way in the African Continent. They want 
to know that we are trusting partners. They want to know that 
we are engaged. They want to know that we are there to assist 
them, in our case, build capacity for their security. If we 
continue to do that, we can--we may not keep pace with the 
Chinese in terms of what they are doing, but at least our 
influence and our involvement there will not go away.
    Mr. Byrne. Well, I thank you for your service. I just want 
to register my concern watching the events, particularly of the 
last week, that things are moving perhaps faster and in a 
different direction than we may have thought.
    And remember: If this was an illegal seizure of that port, 
what is to say that that government wouldn't illegally 
terminate our lease before its term is up? So I just register 
my concern. And I know that you are monitoring it; we will as 
well.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. O'Halleran.
    Mr. O'Halleran. Thank you--oh, there it goes.
    Thank you, Mr. Chairman. I would appreciate--I am going to 
follow up on the China issue also. You know, in the South China 
Sea, we are looking at their expansion, and we have kind of a 
strategy that is pretty public there as far as how we are going 
to address it.
    When we look over to Africa, we see the cuts potentially to 
U.S. aid. We see cuts to other programs. We see cuts to the 
State Department. And I am just trying to understand, what is 
our strategy over there?
    And your latest answer was, basically, we don't have to 
outdo the Chinese; we just have to make sure that we are 
incremental in keeping what we do. But as far as a whole-of-
government approach, I don't see that at all going on in the 
African Continent.
    General Waldhauser. So, thank you, Congressman.
    Look, we will never outspend the Chinese in the continent, 
and that is, I guess, the point I was trying to make. But I 
think our involvement and our contributions there can be made, 
and I think they will be noted.
    I think that one of the things that which I mentioned in my 
opening remarks about how, as a result of the National Security 
Strategy and the National Defense Strategy, how we are 
rewriting our theater strategy and theater campaign plan. And 
one of the elements in this is the China piece. China has been 
on the African Continent for quite some time, but we as a 
combatant command have not dealt with it in terms of a 
strategic interest. And we are taking baby steps in that 
regard.
    I mean, we have to understand that there is a global 
strategy for China. You mentioned the South China Sea and what 
goes on there. But it is a little bit different context inside 
Africa, but that context inside Africa has got to be folded 
underneath our overall strategy.
    And so we are in the initial stages trying to at least get 
Africa and China in the same sentence and that we are going to 
try to make progress with them in a way that, you know, that 
they are not an adversary, but there are some ways that we can 
work together.
    And so that is kind of where we are. But we are trying to 
move that ball down the court with the rewrite of our theater 
strategy, to include China.
    Mr. O'Halleran. I guess, China, we don't have to build 
islands in China. The Chinese don't have to build islands. They 
are doing that in the South China Sea for a purpose. But they 
are doing this African process to develop the--and get--capture 
natural resources. They are building infrastructure to 
transport those resources. They are having tremendous 
influence, moneywise, as you indicated.
    How do we--how with the incremental approach, it appears, 
do we get this to the point where we are competing on the same 
playing field at least with the Chinese on both investment, 
getting aid out there, and having a posture of the military?
    General Waldhauser. Well, I think, from the military 
perspective, the hospital ship was mentioned. I mean, these are 
areas, medical engagements, medical exchanges, with the Chinese 
would be something that would be beneficial. It is very easy. 
It has a humanitarian piece to it, and it is something that we 
are going to try to pursue.
    With regards to our business aspects or--in terms of 
development, in terms of money, you know, some of the issues 
in--the Chinese don't have to deal with some of the situations 
that we do with regards to money and human rights and the like.
    I mean, they go into areas where it suits them. They go 
into areas that--they are concerned with minerals, for example, 
and a potential market of a consumer class. They are not bound 
by any particular laws or rules. And so they have kind of free 
rein to go where--in these kind of gray areas where we probably 
wouldn't venture.
    Mr. O'Halleran. Thank you. I just want to stress that I 
feel that there is a critical need to have an overall whole-of-
government approach, strategic plan. And I don't know if there 
is one yet, but I would sure like to see one.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    General Waldhauser, thank you for being here today.
    I am concerned about our long-term counterterrorism 
strategy and what we are doing to make sure that that is 
sustainable. For example, we make tactical gains in Libya and 
even in Somalia, but oftentimes, we see those hard-earned gains 
rolled back because we lack a larger strategy and diplomatic 
approach to realize those tactical gains.
    Can you provide your assessment on how we improve this and 
how we ensure that we are building on our tactical gains to 
achieve a long-term strategic approach when it comes to our CT 
[counterterrorism] efforts?
    General Waldhauser. Thank you.
    I mean, that is really one of the pillars of what we try to 
do, is our tactical gains to buy time and space for governance 
to take hold. And this is where we get into this idea of us 
supporting political efforts.
    This is why we, in DOD and AFRICOM, in particular, have 
devoted significant energy and resources to assist State 
Department to get back into Tripoli, for example, on an 
episodic basis. That is where the activities are taking place 
these days.
    Is Tripoli totally safe? No. But more meetings, as I said, 
Salame, the U.N. Representative there, more meetings are taking 
place there. We realize this. And so, when the State 
Department--when I worked with the LEO and the charge, the LEO 
being the Libyan External Office in Tunis, when I work with 
them and they come to us and say, ``Hey, we want to, you know, 
get our security people in there to do the reconnaissance to 
see if it is safe,'' then we work really hard--and I work with 
the Secretary, who supports this--that military assets are 
devoted to that because, at the end of the day, that is where 
the political process will begin to take over and leverage the 
CT effort that is ongoing in Libya.
    The final thing on that is one thing for sure in Libya: 
They don't agree on much, but they do agree on a 
counterterrorism strategy, whether you are LNA [Libyan National 
Army], GNA [Government of National Accord], or any tribe in 
between, is a counterterrorism piece is something they all 
agree on.
    Ms. Stefanik. Shifting gears here, my next question deals 
with how we counter adversarial propaganda and disinformation 
efforts. From your perspective, what do you think is your most 
effective tool as a combatant commander to counter adversarial 
information operations, for example, those used by al-Qaida, 
ISIS, or even broadly by China and Russia?
    General Waldhauser. Well, first of all, at the larger 
level, our actions on the continent go a long way to combat 
that. So we can talk about tactical things, social media, and 
the like, but our actions, our commitment to--and our face 
inside and our leadership inside these African countries can go 
a long way to counter that, that we are actually there backing 
up some of the things that we say. That is very, very 
important.
    Our developmental efforts are very, very important. It is 
like I have said: There are many polls that we look at. And so, 
for example, in places like Djibouti, where the Chinese have 
built things and the citizens can see these things, they have a 
very high rating.
    A place like Somalia, where when people think of the U.S., 
to a large degree, they think of the kinetic activity, our 
rating is not--it is not that good. It could be better.
    So, in sum, we need to make sure our actions back up our 
words, and then, at a tactical level, we use those assets and 
authorities that we have to get a message out there that is one 
that is--it throws back or mitigates what the terrorists are 
trying to espouse to.
    Ms. Stefanik. So drilling down a little bit into specifics, 
how you work with the State Department, specifically the Global 
Engagement Center--which, for the record, I am deeply concerned 
that the funding hasn't been spent in terms of our efforts to 
countering disinformation from our adversaries and from our 
terrorist organizations--are we doing enough? Are we 
effectively working with the Global Engagement Center and the 
State Department, from your perspective?
    General Waldhauser. Well, I mean, I am not sure I can 
really answer that. I mean, we work overall with State. The 
first thing we do at any time--whether it is, what does the 
country team think, what does the Ambassador think--we have a 
great relationship there.
    One of the unique things about AFRICOM is I have two 
deputies, one of whom is a former ambassador and can speak the 
language with his colleagues, and we utilize that line of 
communication a lot. So we have very good relationships on the 
continent, and we also have a good relationship with our 
AFRICOM components at the State Department.
    I really couldn't say at this point--I can get back to you 
with details, but I don't really have anything other than that 
on that particular question.
    Ms. Stefanik. Do you--from your perspective, what role 
should DOD play here compared to the State Department?
    General Waldhauser. In respect to?
    Ms. Stefanik. Countering disinformation.
    General Waldhauser. Well, we have a big part. I mean, we 
have authorities, and we have capabilities that we need to 
coordinate with State Department on, and we do that all the 
time, to be honest. It is more of a tactical level.
    But, again, many of these places in Africa, we are not 
talking about high end, let's just say, activity. We are 
talking social media. We are talking newspapers, radio, 
billboards. And we work closely with our partners to try to 
make that happen, especially where we have specific units in 
specific embassies to do that type of thing.
    Ms. Stefanik. Thank you. My time has expired.
    The Chairman. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman.
    General, thank you for your leadership and service to our 
country.
    My questions are similar to Representative Scott and 
Representative O'Halleran about China. I have read that they 
are spending about $60 billion in Africa, and most of this 
isn't direct aid. It is predatory lending where they are still 
charging interest rates.
    They are fully aware that many of these countries aren't 
going to be able to repay those loans. They are engaged in 
extraction of countries without a respect for their 
sovereignty. Our aid is less, but our aid doesn't come with 
strings attached, and we don't engage in those kinds of 
predatory behaviors.
    And then, as you know, the African Union building was 
bugged by the Chinese. Now, when you look at history and you 
look at the East India Company, they went with commercial 
interest that led to imperialism and colonialism. And my 
concern is, would you--do you believe that China is engaged in 
a new form of colonialism on the African Continent?
    General Waldhauser. Congressman, I believe that China is 
engaged on the African Continent for their self-interest. I 
think the minerals and the markets, the potential there, I 
think, it is all about being able to have access to those 
resources, and it is all about their interest.
    The One Belt, One Road strategy, which takes into 
consideration 60-some-odd countries, 40 percent of the GDP 
[gross domestic product] arrangement, it is all designed to 
enhance their global posture down the road.
    And, look, the way they--one of the reasons, I think, why 
some of these countries go ahead and sign on for some of these 
loans that are going to have to come back at some point in time 
is, I mean, they are hedging their bets in terms of they don't 
want to put their eggs in one basket of one particular country, 
the United States, for example. I mean, they want to--it is in 
their interest to have flexibility and so forth.
    So, when they are offered situations where building of 
infrastructure or perhaps loans that can help aid the country, 
I mean, they have a tendency to go in that regard, especially 
if they are a fragile state.
    Mr. Khanna. What would your recommendation be, in general, 
your recommendation of how we counter that strategy from China? 
Because I do believe our country, we have never had an 
imperialist or colonial aspiration. We--you know, we may not 
have a perfect policy, but we don't seek to make these states 
just client states for self-interest, what it seems like China 
is doing. And so we have a very different moral and 
philosophical outlook on the world than China. And what would 
you recommend our strategy be to counter that?
    General Waldhauser. Well, I think, you know, first of all, 
from a holistic point of view, you have got to look at what the 
vital strategic interests are on the continent and what that 
means to us in terms of our engagement and in terms of our 
resources and how much we put into that.
    Africa, over--for some time, has been--I refer to as 
economy of force, but I think I go back to one of my questions 
early on about why is it important. And I think this issue of 
failed countries and a failed continent and the impact that 
could have, whether it was a humanitarian issue, whether it was 
a medical-type issue, whether it was a security issue, today 
and in the future, the scope and scale can be so great that it 
will--it could overwhelm not only our resources but the 
resources of the rest of the people, you know, the rest of the 
countries on the planet. So we have to stay engaged, but we 
have to do that, I think, with an open eye of what our vital 
interests are and what our other priorities are.
    Mr. Khanna. Well, I would just echo the comments of my 
colleagues that I hope we can continue to have a strategy in 
Africa that looks not just at our interest but also makes sure 
that we stand up for the sovereignty of these countries and not 
have improper influence by China in the region.
    Thank you.
    General Waldhauser. Thank you.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    General Waldhauser, my last assignment in the Air Force was 
standing up AFRICOM in those early days, and then I was the J-
33 until I retired. So I feel personally vested in your mission 
succeeding. I have got a lot of memories, good and bad, about 
those experiences.
    But my questions are kind of formed and shaped from my 
experiences there, many of which were very frustrating. Part of 
my responsibility was overseeing our counterterrorism 
operations, time-sensitive targeting on the continent.
    And what we saw was, you know, in Somalia, for example, at 
the time, we would watch hundreds, probably thousands of Al 
Shabaab, you know, trainees being trained and graduated. We had 
a number of approved terrorists that we could have schwacked, 
that we went through the whole process that you are very 
familiar with of PID [positive identification] and collateral 
damage, and we had all the authorities. And we would ramp up 
time and time and time again on days and nights and weekends 
and holidays, only to have to do a VTC [video teleconferencing] 
with political appointees who then would tell us that we had no 
permission to execute.
    That is a perfect example of how not to do time-sensitive 
targeting, when you have got to put PowerPoint slides together 
and brief, you know, Washington, DC, on it every single time, 
as you know, because all that is fleeting.
    I think of one in particular who was involved in the 
Embassy bombings in Africa in 1998, and we were asked the 
question, well, what have they done bad lately, as if they were 
now a Sunday schoolteacher or a Boy Scout leader. So it was 
extremely frustrating.
    We were only ultimately allowed to shwack one terrorist 
while I was there, while we worked up for dozens, and we 
watched hundreds and maybe thousands be trained by Al Shabaab.
    Similarly, AQIM just continued to grow and metastasize to 
the west, and we just were unwilling or unable as a government 
to do anything about it while they continued to build their war 
chest and, as you know, get ransom money, and all that type of 
things.
    I saw last year there were 30 strikes in Somalia. And as 
you know, we are not going to kill our way out of this. But you 
can certainly help create the space for opportunities for there 
to be stability there and to make sure these terrorist 
organizations don't export their terror to Europe and to 
America.
    So it seems like things are ramping up and that you have 
been given some greater decision-making authority. I just was 
wondering if you could share if something has shifted as far as 
decentralizing the decision making so that you can actually go 
after some of these terrorists when they do pop up so we can 
take them out.
    General Waldhauser. Well, thank you very much, 
Congresswoman. I appreciate it.
    And just, by the way, we have commissioned a study on the 
10 years of AFRICOM to see if, in fact--what was envisioned 10 
years ago, how we are making progress today. And so hopefully 
we will get something on that to see if we are carrying out the 
vision that you were part of 10 years ago.
    In this session, what I can tell you is things have changed 
significantly from what you just described. Today, as a result 
of the principal standards and procedures and the operating 
principles that we have, we have authority. And we do not have 
to go through the process that you described.
    I will tell you that one of the things that is very, very 
interesting to watch is those who have been delegated the 
authority to actually conduct these strikes, the efforts they 
go through to make sure that the levels of certainty of 
civilian casualties, noncombatants are taken care of, and 
moreover, the NGOs [non-governmental organizations].
    Ms. McSally. It is extraordinary, as you know.
    General Waldhauser. It is extraordinary. As well as the 
NGOs, because in places like Somalia, when you have the food 
insecurity and you have NGO organizations working around the 
battlefield, it is important that we know where they are.
    But the bottom line is we have the authorities that we 
need. The scenario you just described is not the way it is 
today, and I am very comfortable with how this is being done.
    Ms. McSally. And has that been--and I don't want you to, 
you know, have to make political statements here, but has some 
of that shifted with the new administration, that you have had 
additional authorities in decentralization over the last year?
    General Waldhauser. Well, to be honest, we had some 
authorities under the previous administration but they were for 
a specific period of time. What we have now, we have 
authorities that aren't bound by time. There are some bounding 
of geography and that type of thing, but we have the ability--
and, again, to support not just on our own but support of 
strategy for our Federal Government and a President that we are 
trying to assist.
    Ms. McSally. Great, thank you. I appreciate it.
    I think it is important for the American people to know the 
extraordinary measures that our warfighters go through in order 
to make sure we hit exactly the bad guy and nobody else around 
it.
    But you cannot, unless you are given the decision-making 
authority, that intelligence is fleeting and the situation 
changes quickly. So it is good to hear that you now have the 
decision-making authority that you need.
    Similarly, there is a challenge, as you know, with the 
geography and the lack of resources and sharing resources--some 
of that has already been brought up today, but from airlift, 
ISR, QRF, other issues, have you had any issues with the 
sharing of resources where you just did not have it when you 
needed it based on the arrangements that we have?
    General Waldhauser. One of the things we have done--we do 
very, very well is share with CENTCOM, share with EUCOM. It is 
just how we all conduct operations these days. We have very 
good, close working relationships.
    But our commanders are--with the philosophy in AFRICOM in 
terms of by, with, and through, they know that if they don't 
have what they need, we are going to have to come back another 
day. But that is usually not the case. And we plan so that we 
can share assets with our fellow combatant commanders, and we 
plan our operations that way.
    Ms. McSally. Great. Thanks. I am out of time.
    General Waldhauser. Thank you.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    General, it has been 5 months since we had a briefing on 
what happened in Niger. And I appreciate what you are saying in 
regards to needing to inform and brief the family. So when is 
that going to happen? When are we going to get our briefing so 
we could do our due diligence and jobs as oversight?
    Because 5 months is a long time. And it is insulting that I 
am hearing things getting leaked through the press before we 
get briefings, again, as HASC, which has oversight over DOD. So 
when is it going to happen? And when are you going to come back 
and brief us?
    And I would like to make sure also that OSD is there also 
when you come back and brief us about what occurred. And I am 
not asking for anything that is classified. I just want to know 
a general timeline, and we could take anything classified in 
our next meeting.
    General Waldhauser. So thank you.
    Let me just kind of give you an overview of what the game 
plan is and kind of how--you know, you mentioned the timeline. 
I want to give you some appreciation for that. The 
investigation was exhaustive. It took really almost 3 months 
for the investigating officer to complete his work.
    He went into the chain of command that is in Germany, the 
chain of command that starts in Niger, the chain of command 
that was in Chad, all part of the component who runs special 
operations. Moreover, he went to Burkina Faso to talk with the 
French and obviously spoke with senior officials inside Niger. 
The investigation is exhaustive and very, very detailed.
    The investigation now is with the--I have reviewed the 
investigation, and I have signed off on the investigation and 
provided it to the Secretary of Defense. The Secretary of 
Defense will go through it, and when he is done, at that point 
in time, the intention is to brief the families.
    That has been kind of DOD's position from the get-go. Once 
the families are briefed, we intend, we fully intend to bring 
myself, the two-star investigating officer, and a senior 
representative from OSD to provide you a detailed briefing and 
answer all of your questions.
    We have made an animated video that we will be able to show 
you, which kind of gives--which is a good way to illustrate 
what happened. We will answer all the questions that you have. 
And if you have some that we can't, we will go back and try to 
find those.
    Now, you know, so timelinewise, just to be very honest, the 
timelinewise depends on the Secretary's becoming comfortable 
with it and him going ahead and giving the red light.
    At that point in time, we will brief the families. The 
families--there are four families. That briefing schedule will 
take a couple of weeks because we need to get them into certain 
places, make sure they are there. There is a recess on the 
calendar for a couple weeks that are in there.
    But we are prepared, once the families have been briefed, 
to come here the next day, literally, and brief you all, as I 
just described, in a closed session. That is the plan: The 
various committees get that brief, and that is our plan.
    Mr. Gallego. General, and part of this briefing will also 
include a mortuary affairs report. I requested that in the last 
hearing, and I assume that will also be included when you come 
and brief us whatever months from now?
    General Waldhauser. Well, Congressman, what I can say on 
that is I know that the briefing--the investigating team worked 
with those individuals, talked with those individuals. That is 
part of the investigation. Whether or not that is in the--our 
overall investigation, I am not sure. I will look into that. 
But----
    Mr. Gallego. I am requesting, as part of my job as 
oversight, that there is included a mortuary affairs report.
    General Waldhauser. We----
    Mr. Gallego. That--it will be a failure if you come back 
without that.
    General Waldhauser. Right. I think that what--I think we 
will be able to clear all that up for you with our brief and 
the investigation.
    Mr. Gallego. Thank you, General.
    I yield back.
    The Chairman. Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman.
    And, General Waldhauser, I want to extend my personal 
thanks to you for the great support that you extended and also 
the special operations leaders and commanders when I went to 
Niger and some of the other regional countries a couple weeks 
ago.
    Mr. Chairman, I guess, you know, there was an earlier thing 
brought up about the point on State Department experience. You 
know, I would like to point out that the Ambassador Whitaker in 
Niger was the former deputy chief of mission to Niger and that 
he has also served in 10 African countries. He is homegrown. He 
is not a political appointee. I can't think of anybody perhaps 
more qualified than he is.
    And in the Lake Chad Basin, we see a similar story. For 
example, Ambassador Barlerin in Cameroon, he also served in 
Chad and Mali, which are areas there. And it just speaks to the 
great cooperation, I think, at least my own observations, that 
the military and the Department of State have.
    Perhaps if our colleagues in the Senate would confirm 
appointments faster, we might be able to alleviate that. But I 
realize that that is probably out of the scope of this 
committee.
    General Waldhauser, can you speak to the impacts that 
shutdowns have and CRs [continuing resolutions] have on the 127 
Echo Program and how they affect partner forces?
    General Waldhauser. Congressman, it is not clear. On the 
shutdowns of----
    Mr. Russell. When we shut down the government or we do very 
late funding as we are want to do, can you speak to the impacts 
that that has on the 127 Echo Programs and how that affects our 
partner forces?
    General Waldhauser. On the 127 Echo Programs, really, I 
would have to say, there is really a negative--there is no 
impact on the shutdown. The shutdowns have been relatively few 
days, hours, et cetera, and so I can't say that there has been 
an impact on that.
    With regards to equipment, though, I mean, our ability to 
source equipment in these 2282 programs or 333 programs, as 
they are called, is certainly something that we would like to 
see go faster.
    Many times, the equipment lags behind and so forth, and 
this is something that is frustrating to those who are training 
and equipping, and it is frustrating to those gaining partner 
nations. That would be helpful if that was--if that process was 
expedited.
    Mr. Russell. And you had made mention earlier about working 
with the G5. Could you speak to why the G5 is a better approach 
to partnership and stability than, say, a U.N. mission or a 
U.N.-sponsored Africa partnership?
    General Waldhauser. So, Congressman, I would probably 
answer that two ways. First of all, it is an African solution, 
which is what we want. And by the way, we have bilateral 
engagements with those individual countries, the five countries 
who are part of the G5 Sahel. So the fact that it is an African 
solution is good.
    But it is important to, I think, understand, again, we are 
talking about 5,000 people that will operate in an area, 
someone told me, twice the size of the State of Minnesota. So 
this is an extremely large area, but, nonetheless, it is an 
effort by Africans to try to solve an African problem.
    And then--I am sorry--the second part of that?
    Mr. Russell. Just why that would be better than, say, a 
U.N. mission?
    General Waldhauser. Because, frankly, this organization has 
the ability to conduct offensive operations. The arrangements 
they have made is they can go cross border within those 
countries. And so there have been, I think, three operations 
thus far, primarily in the Mali, Burkina Faso, and Niger area.
    So they have the authorities to cross into, I think it is--
they have--there is some limitations, but they have the ability 
to cross into various countries to pursue the enemy. And the 
fact that they can conduct offensive operations is a big plus.
    Mr. Russell. And I have to totally agree with regard to the 
statements on vital strategic interest. These are fragile 
economies. If they were to fail, if the firewall in the sub-
Saharan Africa were to break, it would have implications that 
we really can't fathom.
    And every time we have seen an abandonment or have cared to 
abandon places, and especially places like sub-Saharan Africa, 
where we have actually worked for decades, then we will see 
disease, we will see famine, we will see human suffering on a 
massive scale, and it will be much more costly to try to repair 
that coming back.
    So I really appreciate all that the AFRICOM does and FSOC 
[Financial Sector Oversight Council] and everything else that 
goes on there on a day-to-day basis. And hopefully we can 
dissuade some of the, I guess, desire of people to want to 
abandon some of the efforts there.
    And thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    And, General, thank you for being here.
    I just want to echo something you were talking about with 
the timeline for investigations. I was a flag officer in the 
Air Force, had to do two of them myself. It took us about 5 
months from the time of the incident to briefing the families 
and putting out the report. So I just wanted to reinforce some 
of the comments you were making there.
    I wanted to ask you about Ebola in Africa. We had an 
outbreak in 2014. It was very tragic. The University of 
Nebraska is now the world center of excellence for Ebola 
treatment, the movement of Ebola victims, and containment.
    Do you have any indications of any Ebola breakout right now 
in Africa, and do you feel prepared or do you have the 
resources available to respond? Thank you.
    General Waldhauser. Congressman, thank you very much, and 
thank you for your thoughts on the timeline of the 
investigation. Again, our job was to try to be as thorough as 
possible, and we wanted to get it right.
    With regards to Ebola, I am not aware at the moment of any 
significant issues there. I mean, we keep a close eye on things 
like malaria, the PEPFAR [President's Emergency Plan for AIDS 
Relief] program we are engaged with, the Walter Reed project 
that works in these various countries. In places like Nigeria, 
for example, where the military medicine has tenants into the 
civilian community, we work closely with them.
    But, again, I think, just to get back to Congressman 
Russell's question is that what we are trying to do there is 
prevent something from happening before it does.
    Mr. Bacon. Right.
    General Waldhauser. And sometimes that is a hard sell. But, 
again, I go back to, if you look at the scale and scope that 
could happen as a result of some of these epidemics, that we 
would have some significant issues.
    So that is why continued engagement, small amounts of 
resources that can try to keep these problems where they are, 
are very, very beneficial and a big part of the development 
piece on the continent.
    Mr. Bacon. You talked a little bit about Chinese presence 
in Djibouti. What are some of the other one or two other 
countries that China is very active in right now?
    General Waldhauser. Well, I think Angola is one of them. 
They get a lot of their oil from Angola. They have had some 
peacekeepers in various locations.
    But I would just say that, as a rule or in the main, that I 
watch closely what they are doing in the eastern part of the 
African Continent, those various countries there, the 
Tanzanias, the Kenyas, the Ethiopias.
    Because this is tied--I just--this is tied to the One Belt, 
One Road strategy----
    Mr. Bacon. Right.
    General Waldhauser [continuing]. And so that is what kind 
of watches my--keeps my attention. They are all over in various 
countries, minerals, and markets. But for what I do on a daily 
basis, I am interested in that part about their development of 
future ports and infrastructure in the eastern part of Africa.
    Mr. Bacon. I would like to ask you briefly about the air 
support you are receiving. When I was the commander at 
Ramstein, we had the 17th Air Force that was dedicated towards 
AFRICOM; the 3rd Air Force dedicated towards USAFE [United 
States Air Force in Europe--Air Forces Africa] and EUCOM.
    We have merged those two organizations together, and that 
one organization is providing support to both now. Are you 
getting or feel like you are receiving adequate and responsive 
air support from the Air Force?
    General Waldhauser. Well, Congressman, I am. You know, our 
components--several of our components are dual-hatted. So we 
have a four-star U.S. Air Force Africa component who is dual-
hatted with EUCOM. Very good relationship, close, personal 
friend, and we find ways to share the assets.
    As you well know, there have been opportunities over the 
last year and a half. We have used B-2 bombers. We have used 
other aircraft from the Air Force that have been provided for.
    And every once in a while, my component commander, who 
wears two hats, I have to remind him that AFRICOM has priority 
over EUCOM, and once he gets that information, it is usually no 
problem. But the bottom line is we are getting very good 
support from the Air Force.
    Mr. Bacon. Good to hear.
    In your comments, you talked about the increasing appetite 
for democracy and free enterprise in Africa. Can you give us 
one or two countries that are showing this promise and then 
maybe one or two that are showing the most lack of promise?
    General Waldhauser. Well, there are probably many examples, 
but I will go back to Tunisia. You know, Tunisia, interestingly 
enough, if you are in the military in Tunisia, it is my 
understanding they are not allowed to vote. That is just the 
way it is there. That is not a judgment. It is just how it 
works.
    But this week or in the very near future, there are going 
to be municipal elections inside Tunisia. And this is the first 
time the military will be able to vote in municipal elections. 
So they are going to see how that works. But the bottom line is 
Tunisia is a--I just think it is a wonderful story of how they 
are trying to make progress inside the democracy piece.
    Look, the easy example in terms of the other side of that 
coin is South Sudan. South Sudan was a promise 5, 6 years ago, 
but today, it is not. And our engagement there is--from the 
military's perspective, is none. We keep a close eye on it from 
the standpoint of protection of U.S. citizens and property in 
terms of whether we have to evacuate out of there, but that is 
an example where it is just not working at all.
    Mr. Bacon. I appreciate your insight there.
    One last question. We have a lot of temporary facilities 
there that give us access. Do you--are you comfortable with the 
level of access you have down in Africa? Do we need more 
permanent basing? I would just like to get your sense. Do you 
have what you need to do the operations that are required?
    General Waldhauser. The short answer is, yes. We are trying 
to develop what is called the West African Logistics Network, 
which works in those countries and allows us to make more 
efficient use. But access is important because that is how you 
mitigate the time and space issues, especially if you have 
warnings that an embassy, for example, may be potentially under 
siege; we have got to move to locations close to that embassy 
in order to cut down on the time and space, if we would have to 
do something.
    Mr. Bacon. Thank you, General.
    And thank you, Mr. Chairman.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General, good to see you again. And thank you both for your 
testimony here today and your service to the Nation.
    So, with respect to Somalia, it would appear that we have 
significantly ramped up our targeting efforts in Somalia. And 
partner-assisted operations and other actions seem to be 
dismantling the terrorist networks, leadership networks.
    But, you know, we have seen this before in Iraq and in 
Afghanistan, Syria, and elsewhere. And can you tell us what 
else you are doing in Somalia and throughout the AFRICOM AOR 
[area of responsibility] to ensure that we are not just playing 
whack-a-mole and instead creating lasting stability in the 
region?
    And I know you talked about coordination with USAID, but 
also what other State Department assets are you working with 
that--directly interacting with the local tribes or entities in 
the region?
    General Waldhauser. Thank you, Congressman.
    I say, just by chance, but I think it is important to note 
that Secretary of State Tillerson is going to be on the 
continent this week. And I think that sends a very, very strong 
signal, and it backs up this issue of our support for 
diplomacy.
    I think, you mentioned about what we are doing inside 
Somalia with regards to kinetic activities, which we have 
turned up the heat in the last few months. That is not to say 
that Al Shabaab is on the ropes, but it supports the federal 
government strategy.
    President Farmaajo has been in power now for a year. If you 
look at where he came from, there was no federal government for 
25 years. If you were 25 years old in Somalia, you don't know 
what a federal government is supposed to do. The ability just 
to create a state along federal lines is a significant 
challenge.
    So the ability to have influence, the ability to work with 
the federal member states who they need--you know, they need to 
see why a federal government is helpful to them. Moreover, you 
have to generate revenue for tax bases and so forth.
    So it is important that, as long as Somalia continues to 
make progress--and our kinetic activity is allowing that to 
happen. It is going to be slow; there is no doubt about it. I 
mean, I have said on several occasions: You measure progress in 
Somalia by eighths of an inch, not by yardsticks or rulers. 
That is just how it goes. But as long as they are making 
progress, they are going to maintain the support of the 
international community. And then the end game of these types 
of insurgencies, if you will, if you want to call Al Shabaab an 
insurgency, the end game will be, is the Somalis are going to 
need to decide for themselves what the arrangement will be at 
the end of the day.
    Will it be a political arrangement? Will it be some kind of 
a power-sharing arrangement? The majority of these types of 
events, meaning Al Shabaab in this particular case, usually end 
in some type of negotiated settlement.
    And this is Farmaajo's strategy is to try to continue to 
beat Al Shabaab back to the point where defections, especially 
of leadership, become the order of the day and some type of 
negotiated settlement with the national government is--probably 
takes place.
    Mr. Langevin. So the United Nations has cited climate 
change-related conflict cropping up in various parts of Africa, 
largely related to decreasing access to water resources. So can 
you discuss what you are seeing across the AOR regarding 
resource scarcity as a result of changing climate and how it is 
affecting social, economic, and security stability across the 
continent?
    General Waldhauser. Well, I think one of the ways to answer 
that question is we have talked about the Sahel this morning. 
And the Sahel with the grassland side, you know, on the 
southern part, on the savanna side, the Sahel has been receding 
by X amount of inches a year over the last decade or so.
    This has a significant impact on those groups, like the 
Fulani, who are called the Peul, or the Tuaregs who have made 
it--who their history is of pastoralists. They are herders. 
They move to where the water and the grasslands are for their 
livestock and cattle. This is having a significant issue on 
them. This causes them to have problems in terms of security. 
This causes disagreements in terms of who owns or who can use 
these--the water rights for livestock.
    So, from a climate change perspective, all of these things, 
you know, when it comes down to it, all of these things that 
impact the livelihood of these particular tribes or groups have 
a significant impact on security.
    Mr. Langevin. And you may have to answer this one for the 
record, but since Operation Odyssey Lightning, the air 
operation which enabled the Libyan Government of National 
Accord forces to recapture Sirte, it seems as if ISIL has moved 
more inland.
    Has the move away from larger cities coupled with changes 
in priorities post operation hindered your ability to pursue 
this threat? And can you speak to how Libya--Libyan, Tunisian, 
and other partnerships in the region support your efforts 
against ISIL in Libya?
    General Waldhauser. Congressman, as you well know, Sirte 
was an effort of several months starting in August of 2016. We 
conducted over 500 strikes in support of the Government of 
National Accord that liberated that city where the militias 
that were loyal to the GNA really did the bulk of the fighting.
    Shortly after, in January of 2017, we continued to watch 
ISIS as they evolved in the southern part of the country, and 
we had a significant strike that put them in a situation where 
they were in a survival mode.
    So, if you look at the number of strikes, Somalia is like 
40 today; Libya is like 8. We continue to monitor that though. 
They still are there. They are still active. They have, to a 
certain degree, moved to other locations, but ISIS remains one 
of our major efforts because CT is still one of our major 
efforts inside Libya.
    Mr. Langevin. Thank you, General.
    Thank you, Chairman.
    The Chairman. Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    And, General, thank you very much for being here.
    You mentioned in your written testimony as well as in 
discussion here today that the poor governance, instability, 
lack of economic opportunity, and so forth provide a hotbed for 
recruits, fighter recruits that end up attacking us and our 
allies.
    And you mentioned earlier regarding the terror groups how 
they are trafficking drugs, people, weapons, whatever. And 
there is economic benefit for them to be involved in that and, 
as well, for recruiting purposes.
    So, I guess you would agree that economic development would 
be a significant factor in reducing potential--a potential pool 
of recruits for VEOs. Is that correct?
    General Waldhauser. I do, Congressman, absolutely.
    Mr. Hice. Okay. So how do we, as the U.S., help increase 
the capacity of the partner countries to help address that 
issue?
    General Waldhauser. So one of the issues that is tied to 
this is governance. And in many cases, these individuals who 
are recruited by some of the leadership of these ISIS, GS, or 
JNIM organizations, yes, it is livelihood issues; yes, it is 
about a better life; yes, it is about being able to make money; 
but, also, there is a piece in there about grievances with 
either local governments or federal governments, or perhaps 
grievances with the military forces that have perhaps been 
working in that area.
    So it is important, then, that, from a training perspective 
as we work to build partnership capacity, that law of war, 
battlefield ethics, and all those type of things are important 
with that training. Because you don't want the military to 
drive youth to the VEOs.
    I mean, we kind of say this tongue in cheek, but if you 
wanted to have a measuring stick of a partner force that is 
operating in an appropriate manner, if they are walking through 
a village, if the women and children go run inside and shut 
their doors, that says something; if the women and children 
come and want to shake hands with the military force, that says 
something as well.
    So the bottom line is, yes, many of these factors are 
absolutely true, livelihood, money, status, and the like, but, 
again, quality and accountable governance and an accountable 
military is part of it too.
    Mr. Hice. Seems to me that that is a critical issue, and 
when you have the corrupt governments and so forth that you 
have there, it is a difficult hurdle to overcome. And yet it 
seems to me that it is best if it comes from those partnering 
countries rather than us somehow trying to enhance the economic 
opportunity. And I don't know how you do that.
    But in addition to the economic outcomes, if we were able 
to find solutions in that regard, what else can we do? Be it 
through AFRICOM's effort or using whole-of-government approach, 
how do we reduce, apart from the economic side of things, the 
likelihood of violent extremists continuing to be recruited?
    General Waldhauser. Well, Congressman, one of my favorite 
items there is just simply education. I mean, education and 
literacy in some of these fragile states is very, very 
important, and that is for the women as well.
    I mean, Niger is a classic example: 7.5 children per female 
is the birthrate inside that country. And so we know that 
education will allow females, for example, to have a better 
livelihood. We know that the childbearing will go down as a 
part of their education.
    But, I mean, it just sounds simple, but simple education, 
literacy rates that can give opportunities for some of these 
youth are very, very important.
    Mr. Hice. Long-term solutions, I agree with you, but those 
things don't happen overnight.
    General Waldhauser. They don't.
    Mr. Hice. And yet, the problem is increasing, it seems, 
overnight. And so I would love to be able to explore further 
solutions, not only for the long term but for more immediate 
solutions that can help slow down, rein in the recruiting 
process. But thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Thank you, General, for being here today. Appreciate it.
    Let's use, again, Djibouti for an example where China has 
showered gifts upon the country, if you will, when you talk 
about shopping malls, et cetera. And shopping is nice, but it 
isn't nice if you don't feel that you are secure.
    And you talked about doing the little things. I guess my 
question there, and maybe other countries around Africa, do 
they feel that their relationship with the U.S. is a valuable 
and important part of their security and, as you just 
mentioned, opportunity? Is that where we are going? Are those 
the things, the small things you were talking about that we do 
that really leave an impression on them towards the U.S. 
favorably?
    General Waldhauser. Congressman, thank you.
    In my travels and my discussions with senior leaders, to 
include the presidents of these countries, they all want U.S. 
involvement. They all want U.S. leadership. And it doesn't have 
to be large. It doesn't have to be grand. But they want to know 
that they have our support. They want to have our leadership, 
and they want to have a relationship with us. They really do.
    Now, that is not to say that that means that they shouldn't 
find other avenues. I mean, they certainly will do what is in 
their best interest. But there are very few, if any, countries 
in the continent who would not welcome U.S. engagement and U.S. 
leadership.
    Dr. Wenstrup. I guess, part of my question would be, do 
they look at these advances from China, do they look at them 
cautiously? Do they look at them suspiciously? Or is it just a 
great relationship?
    General Waldhauser. Well, in this forum, what I would say, 
Congressman, is that they appreciate our frankness. They 
appreciate our openness. They appreciate our ability to go back 
and forth with them in a transparent way.
    And if we do what we say we are going to do, if we abide by 
certain constraints or rules, they appreciate that. I am not 
sure they can say that about their Chinese counterparts.
    Dr. Wenstrup. I visited Chad a couple years ago, and this 
was a place where we had embedded U.S. troops, training them. 
And I can tell you to a person they were thrilled that we were 
there. Those types of actions, I mean, is that still the same 
in Chad, for one? And are we trying to build those types of 
relationships to make them more independent in their defenses?
    General Waldhauser. Well, obviously, we are trying to make 
them more dependent on their own capabilities. That is why we 
are doing this. We still have a relationship with Chad. There 
are some issues there that perhaps we could talk about in 
another session.
    But Chad is a member of the G5 Sahel. We have engagements 
with Chad. We work with their troops. But they are part of an 
overall effort that is tied to the ISIS AQIM nexus in that 
region.
    I will say that Chad is very concerned about their border 
with Libya in terms of AQIM, ISIS, and others coming through 
there. It is a big concern of theirs. But countries in that 
particular area, Chad, Niger, Mali, extremely poor.
    But Niger, for example, I mean, it is a country that has 
got threats on all sides. It is a democratic government. They 
have asked us to come to support them. We have been there, in 
some ways, since the 1990s, and, again, we are trying to 
prevent a problem from happening.
    They have the opportunity in Niger, for example, President 
Issoufou, when his second term is up, they have the 
opportunity, I believe, to be the first country in Africa to 
have a democratic transition in governance.
    And so, again, we are trying to support a country and make 
sure that they are not taken over by violent extremist 
organizations who would take over those ungoverned spaces and, 
you know, turn and make plans to do things outside the region 
into Europe and perhaps in the United States.
    Dr. Wenstrup. Well, listen, I appreciate all your efforts. 
It is a large continent, a lot of different nations and 
strategies. A little bit different everywhere you turn. And I 
appreciate you taking on the challenge. Thank you.
    General Waldhauser. Thank you.
    Dr. Wenstrup. I yield back.
    The Chairman. We will give General Waldhauser 5 to 10 
minutes to stretch his legs, and then we will reconvene 
upstairs in classified session. For now, this public hearing is 
adjourned.
    [Whereupon, at 12:02 p.m., the committee was adjourned.]

   
=======================================================================

                            A P P E N D I X

                             March 6, 2018

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2018

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
